HHS/OIG, Audit - "Safeguards Over Controlled Substances at W.W. Hastings
Indian Hospital," (A-06-07-00048)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Safeguards Over
Controlled Substances at W.W. Hastings Indian Hospital," (A-06-07-00048)
May 10, 2007
Complete Text of Report is available in PDF format (460 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether W.W. Hastings Indian Hospital (Hastings) complied with applicable requirements to secure and account for its Schedule II substances.
Hastings complied with applicable requirements to secure and account for its Schedule II substances. However, Hastings did not have adequate internal controls over its Schedule II substances because key duties and responsibilities for these substances were not separated among pharmacists at the inpatient pharmacy as the Office of Management and Budget generally requires. As a result, Schedule II substances at Hastings were vulnerable to theft and mismanagement.
We recommended that the Indian Health Service (IHS) direct Hastings to establish and enforce written policies and procedures that separate key duties and responsibilities related to Schedule II substances among pharmacists. IHS concurred with our findings and recommendation and stated that Hastings had implemented, or was currently implementing, the recommended corrective action.